al
SUPREME COURT OF KENTUCKY
2019-SC-0625-I
GEOFFREY M. YOUNG

APPELLANT

ON APPEAL FROM COURT OF APPEALS
CASE NO. 2019-CA-1266-MR
FAYETTE CIRCUIT COURT NO. 19-CI-01349
JUDGE JOHN E. REYNOLDS
APPELLEES
ADAM EDELEN, BEN SELF,
STEVE BESHEAR, SANNIE OVERLY,
ALISON LUNDERGAN GRIMES, JACK
CONWAY, AMY MCGRATH, PATRICK
HUGHES, GEORGE MILLS, CLINT
MORRIS, ANDREA EWEN, CHARLOTTE
FLANARY, KATHY HINKLE, KENTUCKY
DEMOCRATIC PART(Y), FAYETTE COUNTY
DEMOCRATIC PARTY, CAMPBELL
COUNTY DEMOCRATIC PARTY,y KENTON
COUNTY DEMOCRATIC PARTY, KENTUCKY
YOUNG DEMOCRATS, COLLEGE
DEMOCRATS OF KENTUCKY, DEMOCRATIC
WOMAN S CLUB OF KENTUCKY, JOSH
HICKS, JARED SMITH, ANDY
BESHEAR, ERIK JARBOE, MATT
JONES, MIKE KERBER, BLUEGRASS
ACTIVIST ALLIANCE, LLC,
KENTUCKY AUTHORITY FOR
EDUCATIONAL TELEVISION, TODD
PICCIRILLI, DONNA MOORE
CAMPBELL, THE WOMEN'S NETWORK

a2
OF KENTUCKY, DR. TRENT GARRISON,
APPELLEES
AND MICHAEL K SCHUGART
ORDER
Geoffrey M. Young has moved to reconsider
this Court's Order entered on April 30, 2020,
enforcing sanctions against him. The motion merely
restates arguments previously presented to this
Court which have been rejected. Young has failed to
make a showing reconsideration is warranted.
Therefore, the motion to reconsider is DENIED.
Young has also moved to amend his cross­
motion for sanctions against the Kentucky Authority
for Educational Television (KET), its employees,
representatives, and attorneys (collectively, the KET
defendants). Young again offers no new arguments
or justification for his proposed amendment.
Therefore, the motion to amend is DENIED.

a3
The cross-motion for sanctions, which contains
little more than restatements of Young's substantive
arguments on what he believes are the merits of his
case, does not set forth an adequate basis for
imposition of sanctions. Thus, the cross-motion for
sanctions is DENIED.
Finally, our February 20, 2020 Opinion and
Order required Young to show cause why we should
not enjoin him from filing further cases against the
KET defendants without prior approval. Although
the response was due within thirty days of the
rendition of our Opinion and Order, Young failed to
mention the proposed sanctions until the July 23,
2020, filing of his motion to amend his cross-motion
for sanctions. Young’s tardy response misapprehends
the authority of this Court to impose such sanctions
and wholly fails to address the merits of the

a4
question. Instead, Young persists in repeating his
unfounded and frivolous arguments which have been
repeatedly and soundly rejected by courts at all
levels. Young's continued resort to such unavaling
arguments fails to advance his cause, results in
waste of court resources, and wastes time and
resources of the defendants who must respond to his
vexatious actions. Any further such behavior by
Young will result in progressively harsher sanctions.
“[T]he judiciary's conciliatory attitude toward
unrepresented parties is not boundless.” Cardwell v.
Commonwealth, 354 S.W.3d 582, 585 (Ky. App. 2011)
While Young has not shown adequate cause
why we should not impose the pre-filing restrictions
in relation to the KET defendants, we decline to do
so at this juncture as this appears to be the first time
Young has targeted these defendants in any of his

a5
previous litigation. We are constrained to only
consider the propriety of sanctions in the case before
us. Although we have chosen not to impose the pre­
filing restrictions at this time, Young is cautioned
that should he persist in abusing the legal process by
fifing repetitive, baseless, abusive, and frivolous
actions, we will not hesitate to impose such sanctions
in the future.
All sitting. All concur.
ENTERED: October 29, 2020.

John D. Minton Jr. (signature)
CHIEF JUSTICE

2. SUPREME COURT OF KENTUCKY
2019-SC-0625-I
GEOFFREY M. YOUNG

APPELLANT

a6
ON APPEAL FROM COURT OF APPEALS
CASE NO. 2019-CA-1266-MR
FAYETTE CIRCUIT COURT NO. 19-CI-01349
JUDGE JOHN E. REYNOLDS
ADAM EDELEN, BEN SELF,
APPELLEES
STEVE BESHEAR, SANNIE OVERLY,
ALISON LUNDERGAN GRIMES, JACK
CONWAY, AMY MCGRATH, PATRICK
HUGHES, GEORGE MILLS, CLINT
MORRIS, ANDREA EWEN, CHARLOTTE
FLANARY, KATHY HINKLE, KENTUCKY
DEMOCRATIC PARTY, FAYETTE COUNTY
DEMOCRATIC PARTY, CAMPBELL
COUNTY DEMOCRATIC PARTY, KENTON
COUNTY DEMOCRATIC PARTY, KENTUCKY
YOUNG DEMOCRATS, COLLEGE
DEMOCRATS OF KENTUCKY, DEMOCRATIC
WOMAN'S CLUB OF KENTUCKY, JOSH
HICKS, JARED SMITH, ANDY BESHEAR,
ERIK JARBOE, MATT JONES, MIKE
KERBER, BLUEGRASSACTIVIST ALLIANCE,
LLC, KENTUCKY AUTHORITY FOR
EDUCATIONAL TELEVISION, TODD
PICCIRILLI, DONNA MOORE CAMPBELL,
THE WOMEN’S NETWORK OF KENTUCKY,
DR. TRENT GARRISON,AND MICHAEL
K SCHUGART
APPELLEES
ORDER ENFORCING SANCTIONS
Appellant Geoffrey Young was ordered by this

a7
Court to show cause why his appeal to this Court
from the Court of Appeals was not frivolous under
Kentucky Rule of Civil Procedure 73.04(4). In his
response, Young failed to make any argument as to
why said appeal was not frivolous.
Accordingly, Young is now ordered to
reimburse Kentucky Authority for Educational
Television (KET) for its attorney's fees totaling
$13,108.95 which KET incurred while defending this
frivolous appeal. Said sum shall be paid within
ninety (90) days from the entry of this order.
All sitting. All concur.
ENTERED: April 30, 2020.

John D. Minton Jr, (signature)
CHIEF JUSTICE

